J

*

19-2384 ®

Supreme Court of the ®nited States
In Re

I
Supre

Sakima Iban Salih El Bey
Preamble Citizen of the United States Government
Petitioner

™ErusFEB 2 3 2021
office o

V.

Congress of Arkansas Et. Al.
500 Woodlane St. Suite 320
Little Rock, AR 72201-1090
Defendants

On Petition for a Extra Ordinary Writ from the
United States Appeals Court,

PETITION FOR EXTRA ORDINARY WRIT,
WRIT OF MANDAMUS

Sakima Iban Salih El Bey
Nonresident/ Non Domestic
First Class, U.S. Delivery
C/O 1759 Willow Creek Drive
Columbia, South Carolina State
Sakimaiban@gmail.com
(803)320-8952

MARCH 8,2021

Leslie Rutledge
Counsel of Record
Catlett Prien Tower Building
323 Center St #200,
Little Rock, AR 72201
OAG@ARKANSASAG.GOV
(501) 682-2007

^fclerk

QUESTION(S) PRESENTED
In a lawsuit, challenging jurisdiction of administrative revenue officers in United
States of America under State trust STATE OF ARKANSAS under the Administrative
Procedures Act and Article 4, sec. 2 Constitution of the United States has been
established that courts when State agencies - West Memphis Police department and its
officers failed to provide the whole training of the two Constitutions which provides two
jurisdictions. This administrative record showed bad faith or improper conduct or a
violation of the privileges and immunities of petitioner who chose to stay in his
jurisdiction and was force by the defendants to enter into theirs while on the private
property of a casino who broke no laws; was traveling within the rule of state law when
he was approached by defendants for making a right turn after careful view of pedestrians
proceeded under the limit of 5 miles per hour, was then backing up into a parking space
when out of nowhere, defendants rushed over to block petitioner and force him out of his
road machine. Petitioner expressed he broke no law, no crime, hit anyone with his road
machine, did not speed nor rush through the parking lot. Defendants proceeded to arrest
petitioner after showing identification of Constitution jurisdictional authority to not be
arrested, detained, or the like. Petitioner thus states after communication with the local
court, appeals court, then District court all ignoring the intent of the founding fathers who
established two jurisdictions by two Constitutions and two Declarations, in that no
damaged party, crime happened.

Does the Constitution of Arkansas make provision to deny a person that is exempt
1
from a ‘driver’s license’ in Arkansas who is in compliance with state code i.e. AR 27-16603(2); AR 27-23-119 being “exempt”?
Does the Constitution of Arkansas make provision for a police Officer to ignore
2
state law that verifies petitioner to be exempt under AR 27-16-603 and AR 27-23-119;
where in his immediate possession he had a “valid driver’s license” from his home state,
United States not United States of America while traveling in his road machine, pursuant
to the Preamble of the Constitution of the United States inter alia?
3
Why did the Legislature of Arkansas create statutes for Officer’s Johnson,
McElroy, who were given the valid driver’s license of petitioner where they ignored it in
violation of AR 27-23-119 and ignored the identification as to being a “Preamble
Citizen” who had a crime committed against him for complying with AR 27-23-119 inter
alia. Officer Johnson has no evidence of such authority, nor does he have a delegated
order of authority showing permission for violation of infringement of Article 4, sec. 2
Constitution of the United States. He charged petitioner with an Unconstitutional statute
i.e. AR 27-16-603; inter alia; where if petitioner was subject to Arkansas state code; AR
27-23-119 and 27-16-603 exempts petitioner who was traveling in his road machine that
states “Any person while operating or driving any road machine.........temporarily
operated or moved on a highway...”, for such is the petitioner under AR 27-16-603 in
that the legislature made provisions for officer’s Johnson, McElroy to use an
unconstitutional statute against petitioner in violation of the Constitution of Arkansas

Article 1, sec 1-29 also federal regulation: Article 4, sec. 2 Constitution of the United
States where they are liable and in violation of Article 4, sec. 2 of the Constitution of the
United States & Constitution of Arkansas Article 1 section(s) 1-29?
4
Does the legislature have authority to ignore the Constitution of the United States,
and write laws that are unconstitutional for state actors to charge a Preamble Citizen of
the United States not the United States of America as listed in the Preamble? The
Constitution of the United States does not delegate to officer Johnson et al, of the West
Memphis Police department to infringe, violate, conspire and deprive petitioner’s
privileges & immunities?
AR Code 27-16-303 is UN-Constitutional and contrary to AR 27-23-119, AR 275
16-603(2) where if petitioner was in the defendant’s jurisdiction, while traveling in his
road machine, and in the jurisdiction of United States not United States of America AR
27-16-603, AR 27-23-119 would apply to him. Road Machine is not defined in the code
and thus applies to petitioner.
6
Does the Constitution of Arkansas and United States make provisions for
defendants to arrest a Preamble Citizen of the United States not United States of America
[who did not drive, has never driven, or does anything in the STATE OF ARKANSAS.]

PARTIES TO THE PROCEEDINGS
The following were parties to the proceedings in the WEST MEMPHIS POLICE
DEPARTMENT; Congress of Arkansas:
1. OFFICER Johnson; OFFICER McElroy ("WMPD") instituted an arrest without a
crime committed nor a Constitutional Warrant, and no legal process - probable cause who
entered a jurisdiction they have no authority to enter.
2. CONGRESS OF ARKANSAS Senate and House of Representatives. Who wrote
legislation that is not Constitutional on the National nor State level. Arrested petitioner
without jurisdiction to do so where also, the Tenth Circuit holds that a false affidavit for
arrest can underlie a false arrest and malicious prosecution claim under the Fourth
Amendment. Petitioners Writ shows sufficient facts to survive summary judgment, even
against a claim of qualified immunity. [False facts with malice would not support
qualified immunity.] (Sheldon H. Nahmod, Civil Rights and Civil Liberties Litigation:
The Law of Section 1983 (4th ed.), for the Petitioner.) Wilkins v. DeReyes. 528 F.3d 790
(10th Cir. 2008):

RELATED PROCEEDINGS
The Charter of 1945: United States, Article [sic] 75 through 85, via Officer of Special
Trustee, 1994 Bureau of Indian Affairs, 1824, U.S. Department of Interior.
Lew v. Industrial Comm'n (1931), 346 Ill. 49, 51, 178 N.E. 370, 371."); That at law,
Midland Coal Co. v. Knox County, 268 Ill.App.3d 485, 644 N.E.2d 796 (4th Dist. 1994)
“authority for the court to make any order.” Lew v. Industrial Comm’n Ibid, Midland
Coal Co. v. Knox County. Ibid.

TABLE OF CONTENTS
OPINIONS

8

JURISDICTION

8

CONSTITUTIONAL PROVISIONS INVOLVED

8

STATEMENT

8,9

REASON FOR GRANTING WRIT

10-13

I. WRIT OF MANDAMUS ON: Extra Ordinary Writ for Mandamus; Petitioner
Cannot Obtain Relief from Any Other Court or Forum
9
10
A. Petitioner Cannot Seek Relief from the Appeals Court for review
II. The Appeals Court Order Exceeded the Scope of the Constitutional Jurisdiction
10
Under the Article 4, sec. 2
A. Extra ordinary writ Aids the Court's Appellate Jurisdiction When It Prevents a
11
Lower Court from Exceeding Its Lawful Authority
B. The Appeals court and District Court Lacks the Legal Authority to Order
Constitutional award of the violation of Privileges and Immunities prescribed
11
in Article 4, sec. 2 Constitution of the United States
III. The Appeals Court Order Creates Exceptional Circumstances Warranting Extra
Ordinary Writ because to the establishing intent of congress of the United
States general government at the writing of the “the Printed Paper”
(Constitution)...................................................................................... 13
A. Senator James McHenry notes from the Convention in 1776 Reveals
Significant Private Information About the writing of the 2 Constitutions... .13
13-15
B. Facts material overlooked by the Appeals court
MEMORANDUM

16

CONCLUSION

,38

Appendix

39-44

Table of Authorities
1) Article 4, sec. 2 Constitution of the United States
2) Preamble of the Constitution of the United States
3) 65th Congress 1st session Doc. 87 “Constitutional Sources of Laws of War” page 7
clause II
4) State ex rel. State Bank of Townsend v. District Court of First Judicial Dist,
94 Mont. 551,25 P.2d396.
5) U.S. v. Hudson; 11 U.S. 7 (1812)
6) Turner v. Bank of North Carolina; 4 Dali 8,10 (1799)
7) Maxfield’s Lessee v. Levy (1); 4 U.S. 330 (1797)
8) Thomas M. Cooley, A Treatise on the Constitutional Limitations,
Little, Brown, & Co., Boston, 1883, p. 493.
9) 21 Am. Jur., Criminal Law, § 338, p. 588.
10) Stilwell v. Markham, 10 P.2d 15, at 16 (Kan. 1932).
11) Matter of Green, 313 S.E.2d 193, at 195 (N.C. App. 1984).
12) Brown v. State, 37 N.E. 2d 73, at 77 (Ind. 1941).
13) Voorhees v. The Bank of the United States, 35 U.S. 449, at 474-475 (1836)
14) Harrigan v. Gilchrist, 99 N.W. 909, at 934,121 Wis. 127 (1904)
15)22 C.J.S., Criminal Law, § 150, p. 183.
16) United States v. Sandra L. Craft, Case No. 00-1831
17) West Virginia Board of Education v. Barnette, 319 U.S. 624, (1943).

CONSTITUTIONAL PROVISIONS:
Preamble of the Constitution of the United States
Article 4, sec. 2 Constitution of the United States
Article 3,
Article 6, els. 3, 2 “

Article 4, sec. 4 “
”
Article 1, sec. 2, 1 through 29 Constitution of Arkansas

STATUTES:

18 USC, sec. 241,242,371
8 USC, sec. 1101 (a) (22) (A), 1503 (a)
28 USC, sec. 3002 (15) (B) (C), 2201
5 USC, sec. 2105 (1) (2), 1501 (2)
Arkansas Code:
AR 27-16-603(2) and AR 27-16-303

DELEGATES CONVENTION NOTES:
96th Congress, 1st session House Document No. 96-143 [See pages 48, 49]

Supreme Court of the United States
19-2384

In Re
Sakima Iban Salih El Bey
Preamble Citizen of the United States Government
Petitioner
V.
Congress of Arkansas Et. Al.
500 Woodlane St. Suite 320
Little Rock, AR 72201-1090
Defendants

On Petition for a Extra Ordinary Writ from the
United States Appeals Court,

PETITION FOR EXTRA ORDINARY WRIT,
WRIT OF MANDAMUS

Sakima Iban Salih El Bey
Nonresident/ Non Domestic
First Class, U.S. Delivery
C/O 1759 Willow Creek Drive
Columbia, South Carolina State
Sakimaiban@gmail.com
(803)320-8952

MARCH 8,2021

Leslie Rutledge
Counsel of Record
Catlett Prien Tower Building
323 Center St #200,
Little Rock, AR 72201
OAG@ARKANSASAG.GOV
(501) 682-2007

OPINIONS BELOW
District Court 2019 and ultimately the Appeals court dismissal around January 2020,
without service of process on defendants because this complaint is too political and can
damage the operation of the STATE agency: STATE OF ARKANSAS; who [Congress]
is complicit with the Constitutional breach, corruption, and infringement. Judicial review
was sought at the local state level June 2019 but was denied and then petitioner requested
in the District Court of United States, but ignored May 31st 2016, ultimately a complaint
was filed in the District court 2018. And the Appeals court denied January 2020.
JURISDICTION
The judgment of the Circuit Court Palaski County seeking “Judicial Review” in
case: CV-19-542, that was timely filed, was “Denied”, because it was sought by in forma
pauperis status and due to petitioner not having any ‘money’ to pay caused such denial
when petitioner was allowed to such status upon the filing of the complaint. The
judgment of the District Court was June 4th 2019, by Judge D.P. Marshall. A petition for
appeal was filed on June 28th, 2019 and thus denied 2019.
CONSTITUTIONAL PROVISION ENVOLVED
Preamble of Constitution and Article 4, sec. 2 Constitution of the United States provides
privileges and immunities in petitioners possession prior to the creation of the United
States of America. “Citizens of each state shall be entitled to all privileges and
immunities of citizens in the several states”. Over to the Preamble, petitioner is the
“Posterity” of the United States, not United States of America who has the blessings of
liberty secured (exception of a crime of murder, or a damaged party inter alia).

STATEMENT
Petitioner has had his privileges & immunities infringed upon while traveling through the
jurisdiction of the “State Agencies” administrative municipal City of West Memphis,
Arkansas where defendants acted to obtain revenue illegally. Petitioner request Injunctive
& Prospective relief, by this complaint & affidavit as witness of criminal activity in
violation of Article 4, sec. 2 Constitution of the United States, Arkansas law AR 27-16603; 27-23-119, against OFFICERS Johnson, McElroy of the West Memphis Police
department. Inflicting statutes that are unconstitutional to raise revenue by any means
necessary, against Citizens of the United States, outside of their jurisdiction, was
deliberate with indifference to the 2 jurisdictions, Constitution of the United States, and
Constitution of Arkansas. Defendants went beyond the scope of their jurisdiction to make
a false arrest and placed them et al, without “Qualified Immunity”which prompted a 4th
amendment violation that shows malicious prosecution where this claim is extra ordinary

because at each stage, the courts from influence and orders from unconstitutional
legislation, to prosecute unlawfully against petitioner, who shows the following:
September 8th 1787 Representative McHenry of Maryland notes
2 Constitutions:
“the printed paper” (the Constitution) was referred to a committee to revise and rearrange.
The revised draft was reported by the Committee of “Stile and arrangement” on
September 12th 1787 and, according to the official Journal, printed copies thereof were
ordered furnished to the members of the convention of the 13 colonies. The 3rd and final
draft of the Constitution was ordered printed by the Convention on September 15th 1787.
Also that day, McHenry wrote in his notes that 500 copies be struck-printed, September
17th 1787 he further noted “members to be provided with printed copies.” These printed
copies were six-page broadsides bearing the imprint of Dunlap & Claypoole, one which,
authenticated by representative James McHenry, has been used as “copy” for the present
reprint. Then it was ordered to be engrossed. The engrossed copy was signed by the
Members in Convention on September 17th 1787. The original and engrossed copy is
identical except for the minor interlineations having been made in the engrossed copy to
conform to the original printed text of ‘the paper’ - Constitution of the United States.
2 Declarations of Independence
The only names of the first printed copy of the Declaration of Independence,
which is attached to the original manuscript Journals of Congress as a part of the
official record of proceedings on July 4th 1776, are printed as follows:
“Signed by Order and in Behalf of the Congress, John Hancock, President.
Attest, Charles Thomson, Secretary.”
The manuscript Journal of July 4th 1776 does not contain any other statement in regard to
signing the Declaration at that time or the names of the Members present and agreeing to
its adoption. The official Declaration sent to the state assemblies - 13, and General
Washington for proclamation, by order of Congress - United States in Congress
Assembled, not the United States of America in Congress for it was not set up yet. Where,
likewise printed thereon an authentication only by Hancock and Thomson's names were
written. Their names are signed to the first-original publication of the Declaration, on
July 6th, 1776. As printed in the evening paper the ‘Pennsylvania Evening Post of
Philadelphia which did not include any other signatures. July 19th 1776, Congress
adopted the following resolution: “Resolved, That the Declaration passed on July 4th
1776, be fairly engrossed on parchment with the title and stile of ‘The unanimous
Declaration of the thirteen united States of America’ and that the same, when engrossed,
be signed by every member of Congress.”
The Journal of August 2nd 1776, says: “The declaration of independence
being engrossed and compared at the table was signed by the members.”

REASON(S) FOR GRANTING THE PETITION
I. Extra Ordinary Writ for Writ of Mandamus:
Petitioner Cannot Obtain Relief from Any Other Court or Forum because of the
nature of the complaint of petitioner where no time in the courts existence has any
petitioner claimed an action from the notes from Representative James McHenry’s of
Maryland of the Conventional Convention that clearly shows the INTENT of congress to
create TWO Constitutions and TWO Declarations. These clear facts and truths are
expressed in 96th Congress, 1st session House Document No. 96-143. No other court in
the land has the authority as this court to hear such action and rule in the interest of
justice. Backed up by the rule of law, which was ignored by the District court and the
Appeals court of the United States because obviously these courts do not have the
jurisdiction - original, nor authority to make such ruling which is extra ordinary because
this has NEVER happened before. That is why no other court can give relief to petitioner
because constitutionally those courts nor any other has jurisdiction and this fact aids this
courts Appellant jurisdiction if it decides to grant such writ to petitioner will allow denial
to any other not claiming these facts of law in the procedure listed, this court can reverse
or deny any other action within its appellant jurisdiction. Petitioner is not saying he is
above the law but on the contrary he is the law, lives in the law, and his status is
exclusive from others not of such status or in such jurisdiction i.e. Citizen of USA in
Australia cannot use United States law there. Also, is not of the original stock of citizens
of Australia to claim such jurisdiction in those courts which too has original indigenous
compared to after Citizens who shall share in certain rights and provisions. The
uniqueness of United States, there are two. Always has and always was, that was the
intent of the Constitutional Convention Congress at the creating of the Constitution and
Declaration.
A. Petitioner Cannot Seek Relieffrom the Appeals Courtfor review Because this
court too, like the Appeals and District court nor West Memphis court of the original
violations, have authority to hear such an action when it was presented to them.
Exception, upon obtaining the presentation and filing of petitioners credentials, if that
judge Franks, would have dismissed the charges against petitioner because of jurisdiction
status, we would not be here. But he did not and refused with deliberate disregard for the
Constitutional provisions where defendants together, ignored, denied and ruled against
such person when they had no jurisdiction over such person. This alone shows reason
why petitioner cannot obtain relief in the Appeals Court of the United States.
II. The Appeals Court Order Exceeded the Scope of the Constitutional Jurisdiction
Under the Article 4, sec. 2. Clearly does it express two Citizens, two States; one having
privileges and immunities before, already - citizens of the Several States. Citizens of each
State who are now ENTITLED to privileges and immunities now getting them. Appeals
court with a clear absence of jurisdiction acted with the District Court of the United
States under color of law and infringed the privileges and immunities of petitioner. The
order from the appeals court ignores its authority of the intent of congress, thus making
its order illegal, not Constitutional, and a clear directive to ignore the rule of law, violate
the provisions of the Constitution and ultimately damage the petitioner.

A. Extra ordinary writ Aids the Court's Appellate Jurisdiction when It Prevents
a Lower Courtfrom Exceeding Its Lawful Authority. Like the lower courts in
this case have done by ignoring the intent of Congress to make two
Constitutions and two Declarations. From this fact of law allows a extra
ordinary writ to be granted in this special case of special circumstances where
petitioner will accept even a “sealed Ruling” in his favor to keep this Appellant
jurisdiction of this court free to see in the future when others may attempt by
complaint or argue and lay out facts and claims in a complaint after reviewing
it may grant it but upon appeal of the courts own volition from another judge of
this court can reverse it. Also after self examination to protect the Appellant
jurisdiction of this court or not, the Writ can assist the Appellant jurisdiction of
this court at the lower courts who may deny, ignore, or refuse to hear similar
claims to protect those interested parties in the lower courts that the appellants
jurisdiction can use as a special tool against the lower courts ignorance or
criminal .‘star chamber’ action to stop the abuse if any from such lower court to
support and uphold and follow the provisions of the constitution and
declaration.
B. The Appeals court and District Court Lacks the Legal Authority to Order
Constitutional award ofthe violation ofPrivileges and Immunities
prescribed in Article 4, sec. 2 Constitution of the United
States. All “United States District Courts” are territorial and/or “legislative
courts” that may operate as administrative rather than Constitutional or
Common Law courts that may only operate upon the territory and other
property of the United States pursuant to Articles 1 and 4 of the Constitution.
The majority of all the courts under the Supreme Court in this federal system
are “United States District Courts”. Not “District Courts of the United States Constitutional or, only Constitutional or common law district courts in the
country. In Hawaii and District of Columbia the jurisdiction of these territorial
courts exist exclusively confirmed by the notes under 28 USC sec. 88, which
says for the District Court of Columbia: .
“It is consonant with the ruling of the Supreme Court in
O’Donoghue v. United States, 1933, 53 S.Ct. 740, 289, U.S.
516, 77 L.Ed. 1356, that the (then called) Supreme Court
and Court of Appeals of the District of Columbia are
constitutional courts of the United States, ordained and
established under article 3 of the Constitution, Congress
enacted that the Court of Appeals “shall hereafter be known as
the United States Court of Appeals for the District of
Columbia”.
Furthermore; Notes section under 28 USC sec. 91 for Hawaii says this:
“Section 9(a) of Pub. L. 86-3 provided that: “The United States
District Court for the District of Hawaii established by and existing under
28 USC shall thence forth be a court of the United States with judicial
power from Article 3, sec. 1 Constitution of the United States”.

All district courts other than Hawaii and the District of Columbia are, from inference
implication of administrative courts, which means that they are territorial courts which
may NOT rule on Constitutional privileges and Immunities for petitioner. Even courts
that are Article 3, can only exercise that power when the judges are also Article 3 judges,
which few judges are. There is a great deal of confusion over this issue like this petition
showing the two Constitutions and Declarations, where attorney’s fully comprehend at all.
Especially some of the judges on the bench throughout the Country - Extra ordinary
circumstance. The United States District Court of Hawaii, in fact does not operate upon
any part of the State of Hawaii are not even of the jurisdiction of this court. 28 USC sec.
91 says:
Hawaii constitutes one judicial district which includes the Midway Islands, wake
Islands, Johnston Island Sand Island, Kingman Reef, Palmyra Island, Baker Island,
Howland Island, Jarvis Island, Canton Island, and Endebury Island: Provided, That the
inclusion of Canton and Enderbury Islands in such judicial district shall in no way be
construed to be prejudice to the claims of the United Kingdom to said Islands in
accordance with the agreement of April 6,1939, between the Governments of the United
States and of the United Kingdom to set up a regime for their use in common.
Court shall be held in Honolulu.
“Section 81-131 of 28 USC notes section, of this chapter show the territorial composition
of districts and divisions by countries as of January 1, 1945. All references to dates were
omitted as unnecessary.”
The important thing to comprehend is the date January 1,1945. At that time, Alaska and
Hawaii were still territories instead of states of the Union. Consequently, the U.S.
District Courts had jurisdiction throughout these two territories at the time this chapter
was codified. All sections listed identify the boundaries of the various districts, but the
actual territory within these districts falls under federal jurisdiction and under the
jurisdiction of the United States district courts is limited ONLY to areas of land that have
been ceded by each state to the federal government since before the state joined the
Union. Anyone who is not domiciled in a federal area within the outer boundaries of
these districts does not reside “within the district”, and therefore does not come under
federal jurisdiction, including jurisdiction to enforce the IRS code subtitle A.
IN Downes v. Bidwell, 182 U.S. 244 (1990) that it was covered by the Bill of Rights due
to the States of Maryland and Virginia before it was ceded to the federal government
after the Constitution was ratified in 1789. At the point when D.C. was ceded in writing
by Maryland and Virginia to the new federal government, the land was covered by the
BILL OF RIGHTS with no formal agreement was subsequently worked out by Maryland
and Virginia to remove the applicability of the Constitution and Bill of Rights to that area.
Any court trying issues in that jurisdiction are Article 3 courts.
In Balzac v Porto Rico, 258 U.S. 298 at 312 (1921), 42 S.Ct. 343, 66 L.Ed. 627 judge
said:

The United States District Court is not a true United States court established
under Article 3 of the Constitution to administer the judicial power of the United States
therein conveyed. It is created by virtue of the sovereign congressional faculty, granted
under Article 4, sec. 3, of the instrument, of making all needful rules and regulations
respecting the territory belonging to the United States. The resemblance of its jurisdiction
to that of true United States courts in offering an opportunity to nonresidents of resorting
to a tribunal not subject to local influence, does not change its character as a mere
territorial court.
III. The Appeals Court Order Creates Exceptional Circumstances Warranting Extra
Ordinary Writ because to the establishing intent ofcongress of the United States general
government at the writing ofthe “the Printed Paper” (Constitution). Appeals court
denial to petitioner on his constitutional claims presents damage to the Constitutional
Intent of Congress at the writing of the Constitution. The 3rd and final draft of the
Constitution was ordered printed by the Convention on September 15th 1787. Then it was
ordered to be engrossed. The engrossed copy was signed by the Members in Convention
on September 17th 1787. The original and engrossed copy is identical except for the
minor interlineations having been made in the engrossed copy to conform to the original
printed text of “the Printed Paper” - (Constitution) of the United States.
A. Senator James McHenry notes from the Convention in 1776 Reveals Significant
Private Information About the writing of the 2 Constitutions. The official Constitution
was completed August 4th 1787 before September 8th 1787 where it was given to a
committee to be revised and rearranged on that day. That new version completed
September 12th 1787 was given to the members to be signed by the convention; the 2nd
Constitution. 2 Constitutions, original for Petitioner and the engrossed copy for officer
Johnson, McElroy representative for STATE OF ARKANSAS et al. One Citizen having
privileges and immunities already Petitioner and the other citizen STATE OF
ARKANSAS et al now entitled to privileges and immunities as laid out in Article 4 sec. 2
Constitution of the United States. The original Declaration was completed August 4th
1776, entitled: “A Declaration” [96th Congress, 1st session House Document No. 96143]. The original was only signed by John Hancock President, Charles Thomson
Secretary August 4th 1776; no other members present at the Convention signed it - A
Declaration. The engrossed copy July 19th 1776, after July 4th 1776, was “Resolved” to
be ‘titled and stiled’ ‘The unanimous Declaration of the thirteen united States of
America’ that document was engrossed and that one was signed by members of the
convention that were present; 2 Declarations, one for sakima iban salih el bey the other
for officer’s Johnson, McElroy representative for STATE OF ARKANSAS et al.

B. Facts material that were overlooked by the Appeals Court.
Fact 1)
5 USCA 556 (d), 558 is the law that has been overlooked by District court.
Jurisdiction has been challenged None Pro Tunc and at the initial onset, and the
Municipal Court of West Memphis, and District court has not given any judicial notice to
that fact. The law requires proof of Jurisdiction to appear on the record of the

administrative agency i.e. UNITED STATES DISTRICT COURT20, of the 28 USC
3002(15). Also Hagans v. Lavine 415 U.S. 533. When Jurisdiction is challenged, the
burden of proof is on the government. Jurisdiction once challenged, cannot be assumed
and must be decided. Maine v Thiboutot 100 S. Ct. 2502. Federal jurisdiction cannot be
assumed, but must be clearly shown Brooks v. Yawkey 200 F. 2d. 633. Law must be
produced into record which authorizes UNITED STATES DISTRICT COURT activity
outside of the seat of government. Article 1, sec. 8, els. 1711 Constitution of the United
States inter alia.

Fact 2) 8 USC 1503 (a), 28 USC 2201 is the law that has been overlooked for, petitioner
is a National of the United States 8 USC 1503(a), that fact has not been addressed by
Judge Denzell Marshall to admit or deny. He have acquiesced which does not answer
anything or that question. He must; and I have stated such status as a National of the
United States with claim of grandfathering or Grand Father Clause to afford them my
position as to the unconstitutional action against petitioner. He refused to deal with, take
care that the laws of the United States be faithfully executed, and address that fact of
petitioner being also a National of the United States. Therefore, petitioner have and now
again initiate action according to the Law within 28 USC 2201 for the District court,
refusal, willful, deliberate, willful blindness to the Laws of the United States.

Fact 3)

5 USC 1501 (2) and (4), 5 USC 2105 (a), 28 USC 3002 (15) (A)(B)(C)

these laws have had a claim made to them by petitioner within his original complaint,
notified the District court, regarding judicial review and it have been overlooked. It is my
intention for the Supreme Court to take judicial notice now for then or None Pro Tunc.
Therefore no Immunity, or any protection exists other than a reasonable expectation to
not violate the Constitution of the United States, Laws of the United States, nor Treaties
made or yet to be made. Defendants actions have caused damage to petitioner thru the
policies and customs to ignore procedures in crafting warrants to arrest, allow district
court judge to ignore request for Judicial Review at the beginning and institute his own
brand of law contrary to the Constitution of Arkansas, Laws of Arkansas, Constitution of

the United States, Laws of the United States especially when presented in the original
filed complaint, making a valid claim which relief must be granted.
Fact 4)

Take Judicial Notice [Rules of Evidence 201 and memorandum], In the

Preamble of the Constitution of the United States it verifies petitioner as the Posterity“more”; for the phrase We, the People refers to the “Lenape” so-called Indians or
Autochthon American Indian indigenous ones. “More” Perfect union refer to the “Moors”;
which is the French spelling for=Moor. Lenape means Land owners or people who own
the land or the People - thus modernized We, the People. Verification is also within the
Great Law of Peace [sometimes called Iroquois Constitution], also the different United
States is listed in the Preamble [and page 1703 4th edition of Blacks law dictionary]
stating We, the People of the United States... do ordain and establish this Constitution for
the United States of America. This indicates that there is another Constitution i.e. “the
Printed Paper” (Constitution) - original Constitution with no title and copy of
Constitution has a title being a 2nd Constitution as laid out in the Congressional notes of
Representative McHenry, in operation already at the time of the establishing of the
Constitution of the United States [verified also in documentary of “500 Nations”- by
Kevin Costner host]. Tail estate claiming Grandfathering or Grand Father Clause as the
aboriginal Autochthon, Indigenous, Posterity, We, the People that Petitioners Great
Grandmother and Father, verified my claim and status. To deny ignore, display willful
blindness to the Law, and Posterity of the United States is Treason 18 USC 23 81.

Fact 5)

The ruling of denial of judicial Review by Judge DP Marshall, was in

error, because at any stage of a complaint case, can judicial review be obtained when
requested by the interested party. Such is the case here.

SUPREME COURT OF THE UNITED STATES
19-2384
In Re
Sakima Iban Salih El Bey
Preamble Citizen of the United States Government
Petitioner
V.
Congress of Arkansas Et. Al.
500 Woodlane St. Suite 320
Little Rock, AR 72201-1090
Defendants

Memorandum In Aid
On Petition for a Extra Ordinary Writ from the
United States Appeals Court,

MEMORANDUM
ON PETITION FOR EXTRA ORDINARY WRIT,
WRIT OF MANDAMUS

Sakima Iban Salih El Bey
Nonresident/ Non Domestic
First Class, U.S. Delivery
C/O 1759 Willow Creek Drive
Columbia, South Carolina State
Sakimaiban@gmail.com
(803)320-8952

March 8, 2021

Leslie Rutledge
Counsel of Record
Catlett Prien Tower Building
323 Center St #200,
Little Rock, AR 72201
OAG@ARKANSASAG.GOV
(501) 682-2007

This Memorandum is to support the request for Extra Ordinary Writ for a Writ of
Mandamus with evidence and data collection to explain petitioner’s status as the Posterity
of the United States, not United States of America as explained in the Preamble of “the
Printed Paper” (Constitution) in that petitioner is the official “posterity” verified and
known by Congress 65th Congress 1st session Doc. 87 “Constitutional Sources of Laws of
War” page 7 clause II being the “Sovereign Authority” shows:

HOW PETITIONER A AUTOCHTHON AMERICAN “INDIAN” MORE=MOOR HAD
MY LAND. GOVENRMENT. CITIZENSHIP. BIRTHRIGHT. NAME STOLEN
Algonquin= Grandfathers, “Elders of Humanity” the “Lenape” or “” (Mound Builders).
The “Adena” who settled in “Philadelphia” from Mississippi around 1000 and 500 BCE
whose offspring Algonquin - “Original People”, “Real People”, “We, the People” ...
“Grandfathers” of “Amexem” “Turtle Island” or Shaxamaxon (1400) the place where
“Kings Meet”, Federated Capital, “Star in the West”; “City at the Setting Sun”; “Ancient
Ben Salem”; or “New Atlantis”; is the “United States” (As listed in the Preamble, not the
United States of America). The Moorish Government which is “Shaxamaxon” then;
today its the “United States” not United States of America as explained in the “Preamble”
of “the Printed Paper” (Constitution). William Penn's agreement with the Lenape to
settle in a part of Philadelphia that was known today as Pennsylvania. William Penn
called our union with him a “Holy Experiment” which is fulfillment from the “Ancient
Priesthood” of ancient Egypt. Before the deluge who these priests had the ability
spiritually, physically, by ritual incantations, to go into the future-time-today and ‘create
events’ of the time from back then. As explained by Dr. Eugene Adams in his
documentary “Africans in Asia”. That such course had reached William Penn’s time,
where his people-offspring a year later after the signing of the “Treaty of Easton” 1758
created a criminal scheme to steal our ancient Autochthon American “Indian” Moor
indigenous culture-status and land spread all over the continent called also “Turtle
Island”. Initial culprit-criminal-deceiver “William Markham”, who was 1st cousin of
William Penn, and served as ‘acting governor’ when Penn was in England. As governor
of the “Colony” of “Penn’s Town”, he saw the place “Lenabehoking” and wanted to have
control of such place, that was already occupied by the land owners “Lenape” who are
the “Algonquin” Grandfathers and Original People - We, the People. While Penn would
go back and forth to handle business for the colony in England, William Markham was
also a Bishop in the Church of England, secretly authorized Thomas Fairman, Hesse
Cock to trick Chief Tamanend to give away that area where the headquarters existed
“Shaxamaxon” as part of the Treaty with Penn. This scheme allowed the PhiladelphiaColony, within Shaxamaxon. To receive providence because Chief Saint Tamanend gave
it away unknowingly by the criminal scheme of William Markham and the spiritual
element of agreement of the earth. (Rituals of the Lenape in Lenabehoking on the Mound
now where the Philadelphia Museum sits today, where we served the ancestors with our
“Spiritual System”) New Atlantis; Ben-Salem; Shaxamaxon; United States (Not United
States of America) which is headquartered in Philadelphia (A Blessing of Earth). The
Treaty of Easton signing by United States, Colony-Philadelphia, from the corrupt scheme

to steal Lenabehoking, Shaxamaxon from Chief Tamanend unknowingly from trickerydeception-deceit-lies, lead by William Markham who authorized Thomas Fairman, Hesse
Cock, to implement such plan to steal the land from Chief Tamanend. After signing the
Treaty of Easton, the plan to steal started by corrupting and using our Alchemical
Spiritual Practice to transform ourselves physically by “Alchemy” i.e.
Our 4 stages of the process; Nigredo, Albedo, Citrinitas, Rubedo.
Nigredo: a blackening or purification/dissolving
Albedo: a whitening or purification
Citrinitas: a yellowing by coagulating polar opposites
Rubedo: a reddening, purpling, - “The Red” means completion and attainment of
“Philosopher's Stone”.
1

Nigredo = Two ways of manifesting; 1 was the dissolution of the Moorish Royal
bloodlines of Europe. It began in 1400’s by the rise of Bohemia, a
Slavic Royal kingdom. The House of Goth began intermarrying with
Moorish German House of Habsburg as well as Moorish Carolingian
Franks. House of Saxe-Coburg-Gotha who sexed the woman to
Create several Royal houses in 16th century Europe also United
Kingdom, Belgium, Portugal, Bulgaria. Queen Charlotte Sophia was
The last Noble (Algonquin Language Royenah meaning “Noble”).

2

Albedo = Making the Slavic Goths as “White Caucasians” and the lost “Tribes” .
Putting into history the intentional mis-labled “Gog and Magog” in the
Bible, as the “Lost Tribe of Israel” that further relate Quakers and
Gathered Churches of London by mystics’ of Pordage’s Philadelphia
commune. But this is not complete to take over or the coup against us.

3

Citrinitas = Means “Out of Many, One”. Continuing to build on the above; this
Stage is the coagulating of the bloodlines of the Algonquin-HebrewMoors 12 tribes of Israel into Gothic Slavs to make a solar (Golden
Hued) being purified from “Nigredo” blackness. This for Gothic Slavs
to gain the “Birth-Right” to Moorish lands and swap (Trading Places
Movie) places in prophecy with us.

4

Rubedo = Reddening or Purpling meaning Completion and attainment of the
Philosopher Stone. The completing of swapping Birthrights. By taking
DNA of Algonquin Lenape Autochthon American “Indian” Moor
Swapping it with their defective gene. Also swapping the information
And knowledge of who we are, that the Moors=Mores become the
Slave and the Slavic Goth become the “Moor-Man”. This is, was, the
Mystery why so-called black people cannot break thru. They do not
Know this depth, of what happened to them. Where the simple thing
To break it is regaining the “Information” from a non-distracted
Position.

Elias Boudinot a Algonquin, Lenape, Cherokee American Autochthon “Indian” Moor by
ancestry, who sold his birthright and sold out his people. His ancient indigenous name is:
Gallegina Uwati, where he also had the name of Buck Waite (Buck Wheat little rascals,
he was a rascal) renounced his Indigenous name and changed it to “Elias Boudinot”. A
founding father in the Continental Congress as President 1740-182. He signed the
“Unanimous Declaration of the Thirteen United States of America” but not “A
Declaration”, the official, original, Declaration. He verifies the Algonquin are the
scattered lost Tribes of Israel the United States not United States of America. He worked
to have the fake Jews -Ashkenazi and Ancient Moorish Hebrews 2 Nations one fake and
the other real, to switch places in humanity (Jacob & Esau of the bible). Elias lead the
creation of ASMCJ American Society Melioration Condition ofJews a complete artificial,
fake, Hebrew. It was a lobbying organization for the fake Jews a forerunner for AIPAC
(American Israel Public Affairs Committee). To create an artificial connection with/of
Christianity, Judaism/Hebrew against Islam (The Ancient Moorish spiritual system of
metaphysics) that ISLAM = I Self Law Am Master. Our Government is Matriarchal
Hebrew Metaphysical structure. Where America has never been associated with
Christianity or a Christian Nation is a fraud, and fake illusionary lie. The hidden scheme
within “Society of Cincinnati” established in 1783 by the Continental Military officers
and French Officers. Membership is by direct lineage & honorarium i.e. Bush Sr. And
Bush Jr. There are 14 branch Societies in America like in the Constitution Article 1 of 14
States-United States of America where Providence Plantations is the doorway to allow
other States to enter the Union. The Moors controlled France at this time too, which is
why the Moors of France and America-United States, used the codified word: More in
the Preamble, the Old French spelling for “MOOR”. So, the phrasing in the Constitution
does not mean the “Citizens are We, The People” it only means the Moors. Who are as
also laid out in the “Great Binding Law of Gyanoshagowa” or “Great Law of Peace”;
Gyanoshagowa means: Peace, (Erroneously called: Iroquois Constitution. They called
themselves: Haudenosaunee). In it too, it states, “Real People”, “Original People” who
are the same people listed in the beginning of the “Preamble” of the Constitution. So,
Original People=Real People=We, the People who are the “Lenape’-Ancient People,
Original People, Real People, We, the People, who are the “Algonquin’-Grandfathers,
Elders of Humanity who wrote the Constitution, which is a “Trust” for the “Moors” to
create a Moor perfect union (for themselves ONLY!!!!!) and secure the blessings of
Liberty to themselves and their Posterity. This does not mean United States of America,
Citizens of the United States of America, never did, never has; nor Society of Cincinnati;
Ashkenazi et al inter alia. The same year, Society of Cincinnati changed their name
“Tamanend Society” at New York’s Tammany Hall 1789 or Society of St. Tamanend or
Sons of St. Tammany or Columbian Order. A New York Political organization 1786 then
incorporated 1789 May 12th, as Tammany Society. It Controls N.Y. Politics and
Democrat Party of N.Y. till today. It controlled to Immigration at Ellis Island. It was the
forerunner of the “UNIONS” today.
Elias Boudinot assisted the criminal aristocracy of the United States of America
cabal to steal our identity, birthright, government to make it all theirs by theft. This cabal
of men operating in Lenape land who created the policy to kidnap “Free Persons” (Article
1 Constitution, who are Algonquin, Lenape Autochton American “Indian” Moor) of color
by the Fugitive Slave Act to capture us-Algonquin-Lenape-Original People-We, the

People and sell us to the Caribbean and Southern States (Like in the movie 12 years a
Slave and Antebellum) as chattel bondage. Elias’s son Tobias, carried out this corrupt
inhumane barbaric evil insane monstrous scheme as the “Negro Catcher”. Tobias
authorized William R. Marcy governor of N.Y. to arrest Autochton American “Indian”
Moors without taking them to a magistrate. They targeted dark skinned Lenape, who fit a
description of runaways, and say “that they came from Africa”. When they were from
right here in Lenabehoking=Philadelphia; Shaxamaxon=America who were “Free
Persons” Preamble and Article 1 Constitution. After signing the Treaty of Easton this
immoral scheme was started and carried out by this cabal who labeled all ‘free person’
Algonquin Lenape American Autochton “Indian” Moors colored and Negro and “Persons
of Color” slaves just like that. This was to remove our indigenous status, with the
assistance and help of Buck Waite or Gallegina Uwati or Elias Boudinot. A Sambo sellout, by this criminal scheme, its criminal because corrupt leaders of government
participated thus making it criminal. It was carried out after the Treaty of Easton signing.
Abraham=Lenape Algonquin, father of many nations=all nations; as explained by Kevin
Kosner in his documentary “500 Hundred Nations”. Judaic, Christian, Islamic means
United States of America, not United States. Joseph, son of Abraham means Chief
Tamanend of “Lenabehoking” - Philadelphia of Shaxamaxon - United States (America)
sold into slavery. Illegally had his government and citizenship stolen. The Brits helped
the cabal who the name “British” means in Hebrew=Covenant. British Empire under the
“Union Jack” is considered “People of the Covenant”. British flag represents: UNION
OF JACOB. Ephraim getting Abraham, Isaac, and Jacob’s “birthright” to the world,
taken or stolen from the vanguard of the earth - Autochton Original People, We, the
People Lenape Algonquin American “Indian” More=Moors (Not associated with any of
these present Moorish organizations) with a duty to gather the scattered Tribes of
Lenabehoking-Lenape sisters from around the world under one banner UNITED
STATES OF AMERICA the 2nd, artificial one. Not the true, real, 1st, original, righteous
one, “United States” as laid out in the Preamble of “the Printed Paper” (Constitution).

EVIDENTIARY INFORMATION
Ancient Kufic Script was employedfor the Arabic Language before the modern
Arabic came into general use. This example dates from approximately 700A.D., and
occurs in Nevada,[USA] where it was mistaken for Amerindian markings of about
1000 B.C. It is actually a Religious text and reads NabV Allah Muhammad - Allah’s
Prophet is Muhammad - It was probably cut into the rock as part of the permanent
school lessons of the Muslim/Moreish settlers of the southwest {Sample of words from
Saga America by Barry Fell}
{The origin ofKufic or the angular style ofArabic script is traced back to about
one hundred years before thefoundation ofKufah (17H/638CE) to which town it
owes its name because of its development there: Note from S. M. Imamuddin, Arabic Writing And Arab Libraries, 1983, Ta-Ha Publishers
Ltd.: London, p. 12.}

The Qara called Kufic script is the earliest Qara so called Arabic script and is
related to the family ofMuhammad through Ali, Fatima, and BilaL BilaVs descendants
moved through Africa to West Africa, present day Morocco and across the seas to the
Americas and left these inscriptions in Nevada at a school established there. {The
Arabic script fkhattl is the one which is now known as Kufic. From it evolved all the
present pens: Note from Abi al- Abbas Ahmad al-Qalqashandi, Kitab Subh al-A 'sha, 1914, Volume III,
Dar al-Kutub al-Khadiwiyyah: Al-Qahirah, p. 15.}
The purpose of this Memorandum is to provide the Court with the most important
secret histories directly related to Petitioner. The forbidden ideal in America is what?
This Memorandum is designed to aid the request for Extra Ordinary Writ, Writ for
Mandamus and serve to be an Amicus to provide scholarly evidence of law history on
petitioners Autochthon Indigenous past, present, existing status as a Citizen of the United
States not United States of America.
[NOTE: When the statement United States is written it means the “United States ”
in the Preamble and not “United States ofAmerica” in the Preamble and the statement:
negro; Indian; Black refers to “More ”, good Moors\

‘Negros’ are the Original Indians
Proof in the Jesuit Letters
The Book ‘Africans and Native Americans’ by Jack Forbes paints a very different
picture of history than what most of Us were taught about the origins of so called-Black
People in the Western Hemisphere. We were taught that Black People came from Africa
as slaves that the Red Indian was the true American Indian More, and that White people
took ‘Black’ slaves from Africa and stole the land of the Red Indians. This story is
nothing but a giant fiction, a novel made up by white historians to deceive the masses
about the original history and peoples of the Americas. Jack Forbes uses the letters of
Jesuit Missionaries to prove that ‘Negroes’ or ‘Black Moors’ were the first Americans
and in fact were the Black and olive toned people found in the Western hemisphere.
Commenting from the Jesuit letters on the appearance of the American Indian Moor
Americans Forbes states,
“For example in 1519 it was said of the Brazilians ‘non sono neneri ne blanchi ma di
colore di ulivo (that is they are not black or white but of olive color) but the same writer
remarked that the Brazilian canoe-men he saw were ‘so black’ that they could have
been taken for sailors on the sea of styx (In Hell). ”
The author continues his comments on the appearance of original Natives in North
America from the Jesuit letters,...
“In 1524 the Carolina coast people were said to be ‘of dark color not much unlike the
Ethiopians. ”
The terms negro and indios were used interchangeably to describe the natives in the
journals of early missionaries who could not have possibly been referring to Africans,

“From 1549 through 1565 the letters of the Jesuit missionaries in Brazil usually
addressed to colleagues in Portugal or Spain, frequently refers to the American Indian
Moors as Negroes...In April of1549 Manuel de Nobrega, the leader of the Jesuits,
addressed a letterfrom Bahia to Simao Rodrigues in Lisbon in which he refers to the
Portuguese in Brazil as living in sin because of their having ‘many negras’ and lots of
children by the said ‘black’ women. Thus the Jesuitfather called the American women
living with Portuguese men ‘negras’, a term which according to Leite, could not have
denoted people from Africa because in 1549 there werefew or no African women in
Bahia. Nonetheless, Nobrega uses the word indio...
‘When Africans are referred to in the Jesuit Letters they are always called negros da
Guine (Blacks of Guinea) to distinguish them from negros de terra (Blacks of the land
or Americans)
“A very interesting letter is one prepared by ‘dos meninos do Colegio de Jesus da Baia,
that is, by young Americans studying in the school: Diogo Topinamba, Peribira
Mongeta, and Quantia. Although probably edited by a Jesuit, this may represent the
first letter written by Americans in a European Languagefrom Brazil In it they refer
to an American leader, ’el Grillo’, as a negro and to other natives as negroes. We find
for example ‘El Grillo, who is a negro very well known andfeared among them’ and
that El Grillo ‘es negro muy grave’. El Grillo was at the same time an Indipagan and a
friend of the Portuguese. ”
“In August 1552 Nobrega wrotefrom Bahia [South America] to Lisbon [Portugal]
referring to the native peoples as negroes. In May 1554 Antonio Blazquezfrom Porto
Seguro wrote to the Jesuits of Coimbra that:
Yo estoy en este Puerto Segro, y la vida que hagoy en lo que me ocupo es esto: enseno
la doctrina a los negros y negras.
That is he was preaching to the Americans, called negros. He also referred to the
negros and los mamalucos des la tierra as pupils. The editor notes that by negros and
negras he meant Indios e Indias. ”
The history as recorded by the Colonizers hands bears witness that the so-called Black
People are the Indigenous and first Americans, American stemming from the intercourse
of Vespucci and Columbus with Indigenous so-called Blacks in Central America
[Amaru]. The use above of ‘mamalucos’ to describe the negros which stems back to the
Qara- Algonquian-Arabic word’ Mamluk’, also shows the Autochthon American Indian
Indigenous Moor presence in the Americas. This history spanned from the first
encounters of the Caucasian Europeans with my Ancestors to the Establishment of the
United States and United States of America and the Revolutionary War period.

vV

; ^ •V"
x

f

NOTE: Petitioner and all reference to the word More=Moor, has no connection with any
Moorish Organization what so ever.

i

* * -»'■ >',<4, ’ jeuLr ^ ’'t &"
*■
*
jsr*'
,ff, ' i
The Dutch artist Jan Verelst painted these paintings of the so-called Mohawk chiefs who
visited London in 1710. The paintings were housed in ‘Kensington Palace’. Kensington
which is an area in Philadelphia named after this palace held the original name
Shackamaxon [Shaykh-Amexem (Am-Akh-Sum) meaning ‘the Black Spiritual Priests of
God’] & [Sachem-Akh-Sum]. The original name of the Mohawks is Kanian-ka, which
resembles Canaan [Israel/Phoenicians] .The Center picture is the Chief of the Creek
Confederacy Tomochichi and members of his Nation in England 1736 having intercourse
with James Oglethorpe, then proprietor of the colony of Georgia.
The Language of the “American Indian More” aka Negroes -Algonquian and
Arabic are essentially the same language which goes back to medu neter
[Hieroglyphics]

Nanticoke More=Moor L’nu People

•

• L’nu L’nape = Nanticoke Moors
The Chief Tribe of the Wabanaki Confederation of Moors was the Delaware of
L’nu L’nabi

• PETITIONER A SO-CALLED BLACK & SO-CALLED AFRICAN
AMERICAN THE DESCENDANT OF THESE MORES=MOORS?
WILLIAM PENN EYE WITNESS ACCOUNT OF
Lenapi, Nanticoke Moors
• The first detailed description of the Delaware’s is in a letter from William Penn to
the Committee of the Free Society of Traders in 1683.
• He wrote: "For their Persons, they are generally tall, straight, well-built, and of
singular Proportion; they tread strong and clever, and mostly walk with a lofty
Chin: Of Complexion, Black, but by design, as the Gypsies in England: They
grease themselves with Bears-fat clarified, and using no defense against Sun or
Weather, their skins must be swarthy.
• Below Source: William Penn to the Committee of the Free Society of Traders in
1683
Chief Tamanun “The BlackaMoor”
Chief of Turtle Island (America)
in Shaykamaxum or Philadelphia
...
' ^
....

yy/'V

t

-

'■■'s

5

v

■S'M
P

’/V'1

A<'

■an^ mm*

Sons of St. Tammany aka Sons of Liberty
Worship - A Moorish Chief
• The Three Branch System was ‘GIVEN’ by the More=Moors so called
Delaware/Lenapi/Nanticoke Moors of America
• Anami - Executive - Chief Enforcers
• Munasi - Judicial - Interpreters
• Analakhtagu - Legislative - 50 Women - Oral Law Traditions
CHIEF BLACK HAWK or M AKATAIMESHEKIAH
Chief Black Hawk was chief of the Sauk (Sakh). His birth date is not known. The name
Black Hawk is reminiscent of the Black Hawk or falcon of Kemetic tradition representing
‘Horus/Heru the resurrected son of Osiris, the ‘anointed one’. Black Hawk was bom Maka-tai-me-she-kiah Mashiach is the Hebrew word for Messiah—literally means the
"anointed” as we can see this is a part of his name. His last public appearance was
ironically July 4,1837, a special day in ancient Moorish-Israelite [Egyptian] culture in
respect to astronomical science. His attire in this painting is very ‘Moorish’ in tradition.
Black Hawk was a terror for the whites in the 1800’s and is a part of a legacy of so
called-Black People who have been written off under ‘Red Indian History’ and
disassociated from so called-Black People as their lineal ancestors of which they are.
In 1803 the historical Lewis & Clark ‘Expedition’ was prepared by the
United States of America officials, not United States officials, for the purpose of
exploring the unknown territory from the western edge of the colonies to the Pacific. The
true intention was to spy on the Autochthon Indigenous Moor People who are of America
prior to the Caucasian European invasion and colonization. Captain Merriweather Lewis
and Lieutenant William Clark of the United States of America Army used a so called-

Black Man named York, who was also the son of Yusef Bin Ali, along with a Native
woman named Ceesonnenee {Sacagawea -found on the millennial edition of the Dollar
with her son Jean Baptiste Charbonneau} to be their interpreters as they gathered
intelligence. In the Book Return of the Ancient Ones. Empress Tiara Verdiacee
Washitaw Memorandums,
“Lewis and Clark Documented everything in sight, the weather, the plants, the rocks,
the minerals found, the people by tribe, by habits, by color, by war-like activities and it
was documented a bushy-headed tribe who did not like the redman or the whiteman,
the Black bushy-headed Washitaws. Now please explain why history did not make Us
aware of this importantfact? It was because they went to spy on the Washitaws, a
people that the good old United States had signed to be their protectorates over their
rights, their land, and their property. ”
John Sibley Memorandums in the Lewis and Clark Documents,
To the right is Mahaska another Chief with an Aramaic/Hebrew name. Mahaska means
the one with man horns as the painting shows and it represented his chiefdom. He and
his father were recorded to have been in 18 battles with the United States of America and
never lost one. He and his father were allies of Black Hawk or Ma-ka-tai-me-she-kiah.
He traveled with his father to Washington D.C. in 1824 to meet with President John
Quincy Adams. The Secretary of state was Henry Clay. These two, Adams and Clay,
were later ordered by Abdur-Rahmaan Ibn Hisham to release Abraham ibn Sori, The
‘Prince of the Slaves’ in 1828. Abraham had been touring all over the West speaking
with these chiefs about the Laws that were being used to free Him under the Moorish
status. In the 1840’s the government made many treaties with American Indian Mores
and land deals in Oklahoma, Louisiana, and Kansas. John Quitman and Eliza Tunica the
father and mother of Noble Drew Ali among many other family members were apart of
these transactions and interactions.
“Choctaw - There are rambling hunting parties of them to be met with all over
Louisiana. They are at war with the Caldousies and liked by neither the Red nor the
White People. April 5th 1805
After the Lewis and Clark spy mission the United States of America brought 59
Caucasian European families into the Louisiana Territory under the guard of the United
States Army, who lied to the President that the so-called Indians were hostile, or
attacking them. The Military poisoned the water supply with the intent of murdering off
the original indigenous so called-black American Indian Moor population. They brought
their school curriculum's as they enslaved and murdered petitioners people making claims
that they (The Autochthon indigenous peoples) were fugitives from justice under
Constitutional Law and were Caucasian European property from Africa. However the
people did not consider themselves by nationality or status as Africans until after this
was breeded into them. The Autochthon Indigenous people in America did not originally
call themselves Americans. They were of Ta Mry and were Muurs. This word
‘American’ is a word of the white colonizer. There is evidence of this deceptive activity
to falsify our status that is undeniable. It was a part of a plan to wipe out our Indigenous

history in America. The names like Tunica and Washitaw were turned into Turner and
Washington.
WARS With The Moors=More=Autochthon American Indian not native
American Indian
•

•
•

1752 - So-Called French and Indian Wars were wars between the Moors [Black
Knight] Templar Families and Aboriginal Moors vs. British Colonists and Great
Britain
In 1776 The Sons of St. Tammany allied with the Moors to fight against the
British Colonists and Great Britain
Some of the British Colonists infiltrated the Moors and Sons of Liberty aka Sons
of St. Tammany in order to overthrow the Moors. They were People like Thomas
Jefferson, George Washington, Andrew Hamilton, and Benjamin Franklin.
Mores=Moors Titled Negroes by United States of America

•
•

STATEMENTS FROM GENERAL THOMAS JESSUP
“This, you may be assured, is a Neero. not an Indian war, and if it be not
speedily put down, the south willfeel the effects of it on their slave population
before the end of the next season."
• - Major General Jesup, June, 1837, in American State Papers, Military Affairs,
cited in Kenneth W. Porter, The Negro on the American Frontier [New York,
1971] 251, 281
• “"If the war be carried on it must necessarily be one of extermination. We have,
at no former period of our history, had to contend with so formidable an enemy.
No Seminole provesfalse to his country, nor has a single instance ever
occurred of a first rate warrior having surrendered."
• IBID
• “Throughout my operations I have found the “Negroes” the most active and
determined warriors; and during the conferences with the “Indian” chiefs I
ascertained they exercised an almost controlling influence over them....The
“Negroes” rule the ‘Indians’.
Many of the Original “Black” Autochthon inhabitants began to flee from the
Western territory and many inhabitants sought refuge in Florida and some went further
west to California and mingled with other unaffected indigenous populations. In 1816 a
U.S. Colonel named Duncan Clinch lead an army into Florida to destroy what was called,
‘The Black Fort’, or Fort Negro. Colonel Duncan Clinch led an army of Red-Creek
mercenaries and a U.S. army Unit into Florida to destroy Fort Negro. In a Book called,
The Black West’, by William Katz, Katz Memorandums,
“The explosion killed almost all of its Black and Red Warriors and two-hundred
women and children... The few warriors were led back to the United States ofAmerica
and Slavery. In his initial orders General Jackson had asked that they not only destroy
thefort but, ‘return the stolen Negroes and Property to their Original owners. ”

But the question remains, did these Autochthon see themselves as slaves, foreigners, or
property of the Caucasian Europeans, as Africans, Negroes, or colored peoples. No! In
Colonel Duncan Clinch’s Memorandum of the Battle at Fort Negro, the 1st U.S. invasion
of Florida the information provides facts to the contrary. Colonel Clinch’s Memorandum
reads,...

Fort Nesro 1816
[Negro=Asiatic=More]
“In the evening a deputation of chiefs went into the Fort and demanded its surrender,
but they were abused and treated with the utmost contempt The Black Chief heaved
much abuse on the Americans lsoldiers 1, <6 said he had been left in command of the
fort by the British Government and that He would sink any American vessels that
should attempt to pass it, and would blow up the Fort ifHe could not defend it The
chief also informed me that the Negroes had a Red Flag, and the English Jack was
flying over it
The question that must be answered is, were these people former Slaves? What was their
purpose for flying the two Flags they were flying? Slaves do not have Flags. A Flag
represents a Nation. What Nation(s) did they represent? There were canons in use at Fort
Negro. It is a well-known fact in history that the canon was developed by the Moors in
North Africa and Spain.
“The Moors had not only made the fire stick, as mentioned above, but even canon
forgedfrom wrought iron. ”
The Two Flags represented Great Britain and the Indigenous Moorish Empire
called the United States, not United States of America. One represented the Nation of
Indigenous Moors. This is the same Islamic Empire in the east that Abu Bakari, brother
of Mansa Musa, was under when He brought 400 ships to America in 1311 A.D. Is it this
flag that the ‘Chief’ was Flying at the Black Fort in Florida in 1816? Was there a
continuous Moorish connection from 1311 with arrival of Moors from the East that is
documented in Africa and America until 1816? The documented dates for the presence of
contemporary eastern Moors go as far back as 700 A.D. as we have shown with the
inscriptions found from an ancient Nevada school bearing the name of Muhammad as the
Prophet of Allah.

The above Flag is the “Flag of the United States”, of the Official More=Moor “American
Indian” Government.
The Chief at Fort Negro during the invasion of Colonel Clinch was named
‘Abraham’. His birth name was ‘Sounoffee Tustenuggee’ which meant ‘Suwannee
Warrior ’ and has been associated with the Suwannnee river in Florida. The Moorish
Mande Arabic word ‘Sounoffe’ means ‘Powerful Spirit’ and Tustenuggee means
‘warrior’. This Chief who had an Autochthon American Indian Moorish heritage like
most of the Maroons in Florida was not a former slave. His descendency went back to
Indigenous Peoples. Abraham served as interpreter for the Seminoles and as Legal
Counsel for Himha Micco (John Jumper) and Holata Micco (Chief Billy Bowlegs).
Himha Micco was the Seminole Chief. His brother Holata Micco was also a Chief.
Abraham served as a representative on their trip to Washington D.C. to negotiate a Treaty
with the United States General Government [United States in Congress Assembled not
United States of America in Congress Assembled] in 1832.
Sounoffe Tustenuggee also known as Abraham was a ‘maroon’ or a. Moo
amongst the Seminoles. He was their Chief Legal Counsel and interpreter. It was He who
was at Fort Negro in 1816 Flvins the Moorish Flas of the Islamic Empires .This is the
Famous Cherry Tree that was chopped down. Abraham soon moved West to Oklahoma
and Chief Hilota Micco and Chief Himha Micco disappeared in the everglades. This was
the start of the Pins secret society and other secret societies amongst the Creek and
Cherokee (Saragi). These are the societies that later developed into the Ancient Egyptian
Arabic Order ofNobles of the Mystic Shrine and the Moorish Science Temple of
America.
So what is the connection to the Americans in modem time and history and the
efforts of our greatest teachers to reacquaint us with this marvelous and most useful
history. As witnessed through his activity, Noble Drew Ali had to be very aware of these
histories and began to implement repair on our people by repairing the root of our people
through a knowledge of self as he knew it at the time.

The Moors dominated trade in this period. Trade was dominated by the Moors
from the West and North Coast of Africa to the Gulf of Mexico before the Inquisition of
the Spanish and slow deterioration of the Moorish and Islamic influence in the East. Even
in the 1700’s the riyal was the unit of currency used in Mexico which is the present
standard currency of Saudi Arabia. This trade becamefully interrupted when the United
States ofAmerica developed an independent Marine Corps and Navy in the 1800s.
They fought wars against the Moors (Barbary Wars) and eventually won out in these
confrontations. They later fought wars against our people in Mexico [Amexem]. The
hymn of the Marines declares that they have fought "from the halls ofMontezuma to the
shores of Tripoli," referring to exploits by the United States Marine Corps in the
Mexican War and in campaigns against ‘the Barbary ‘pirates’ of North Africa’. Those
Barbary pirates and some of the so-called Mexicans were the Moors. The Black Maroons
(Moors) from Florida who had set up communities in Mexico in the mid 1800’s. The
canon was also found amongst the so-called Mexicans, which was a signature weapon of
the Moors and Maroons of Florida at places like Peliklakaha, a city built by Maroons/
Moors in Florida, and Fort Negro, where the Black Moorish Chief Sounoffe Tustenuggee
(Abraham) was captured by Colonel Duncan Clinch.
With about 2,000 men, Gen. William J. Worth captured the road between
Monterrey and Saltillo and by noon was storming Federation Hill Six companies of
Texas Rangers charsed up the hill, seized the enemy artillery, and turned the *cannon ’
on retreating Mexican forces.
The Autochthon American Indian Indigenous so-called Blacks in Mexico went under
many names like mestizo, cholos, negroes, and even Indian. The term Marines comes
from Mare, which in Latin implies a navigator of the waters and also means ‘black’. So
the Marines took the name of the people they were conquering, the Maurs (Moors), a
signature move of the grafted peoples.
The history of the interaction of the Moors with the white English is extensive.
My Ancestors had made many International treaties with the English for the protection of
their Citizenry and trade regulations. The Moors of the Eastern part of the Islamic Empire
whose capitol was seated in the Western portion of Africa {Maghrib} had made two
treaties with Queen Elizabeth I of England as early as 1578. Islam had a major impact
on Great Britain from 1558 until 1685. This is documented by researcher Nabil Matar in
his book ‘Islam in Britain \ This explains why John Hawkins would have been trading
amongst my People flying the Flag of the Moors/Muslims, the Red Flag of the Ancient
Moorish Nation, the Nation of Islam. These original black people are my ancestors.
There were international agreements between these nations. This Flag indeed
represented an independent Nation and a Lineage that spans back to the 18th Dynasty of
Egypt called often ‘Sana IsraaeeV, The Offspring of Israel, the Family of Amraan
(Quran Surah 3 Amraan) and beyond. The Moors were international in their commerce
and many of the members of this nation had settled in America. As I have noted, Abu
Bakari the elder Brother of Mansa Musa took 400 ships to America in the early 1300’s.

The Atlantic ocean was not a barrier for our people. We were and are Indigenous to
both landmasses.
It was the Black Indigenous Populations of Moors in the West that suffered a
death Blow from colonizing Caucasian Europeans. Throughout the 16th and 17th centuries,
while Spanish, Dutch, French, British, and Portuguese Christians were conquering
indigenous populations across the Pacific and Atlantic Oceans, Islamic Military power
pushed the Ottomans and their North African Satellites (the regencies of Tunisia, Tripoli
[Libya] and Algeria) along with the “Empire” of Morocco beyond the Mediterranean and
as far as the walls of Vienna and into the English Channels. This is the detailed history
that has not been known by most and is at the root of the rise of Caucasian Europeans in
the Western Hemisphere. Islam was on the rise in the east in Europe and as the colonizers
left for ‘Freedom ofReligion’, the freedom that they wanted was freedom from the
oppression of Christianity. They found this in the west through interaction with the
Ancient Moorish Empire in America. Their expansion into the west [Caucasian
Europeans] has buried the knowledge of the Ancient Indigenous Moorish Empire in
America called “United States”.
Mv Ancestors, the Indigenous so called-Black Peonies of the Americas and the
East were Aware of these currents and used them in trade and travel across the
Atlantic from the Americas, to Africa and Europe.

Of course history proves that some of my people were brought over as slaves, however
majority if any of them were not. We have also never considered as a people that most of
the prisoners of war (slaves) were taken from geographical areas of the Moorish Empire
and the action of enslaving Moors/Muslims by the white Americans and British was and
is a violation of International Law and Treaties. Sylviane Diouf in his book “Servants of
Allah ” points out that nearly 60% of the captured peoples during what we call slavery
were Muslims/Mores. Most of Us have not taken in this knowledge and perspective on
the history of slavery. This is in part due to the defeatist curriculum's that have been
given to us by whites and even by some black scholars. There is much proof of the
settling of Black People from Egypt and other empires in America prior to Caucasian
European colonization. These so-called Egyptians like Moses (Pharaoh Akhenaton) are
considered to be Moors/Muslims bv nature and according to the Book ofDivine
Contract of the Moorish Nation (Qur’an) and the Treaties (Marrakash 1786.1836)
specify the Qur'an as the law of adjudication between Moors/Muslims and white
Americans [See Treaty of Marrakash] .There were also Moors from the era of
Muhammad (7th Century) and beyond in America prior to colonization. A decree issued
in 1539 by Charles V, King ofSpain, forbade the grandsons of Muslims burned at the
stake to migrate to the West Indies. This decree was ratified in 1543, and an order for the
expulsion of all Muslims from overseas Spanish territories [Mexico & North & South
America] was subsequently published . Why? Why would the Christian King of Spain
and the Pope in Rome want all Muslims expelled from all Spanish colonies overseas?
Heman Cortes, a Spanish criminal who invaded Mexico in 1519, who had an inborn
genius for treachery and was unbelievably cruel and brutal, boasted to this same King
Charles V of Spain that he had massacred unarmed women and children in order to

impose his will upon the natives. These natives were the indigenous American Indian
Mores who had settled this area, and the same war tactics of the Caucasian Europeans
during the later wars in North America (1800’s) with the Indigenous Moor populations
were used and orchestrated here. These White Christian Crusaders were kidnappers,
kidnapping small children and breeding them. Thousands of Moorish ‘Red Peoples’ were
used to make war against the Original Indigenous Moreish Peoples of the land. This
tactic of separation was used in the early developments of government in America and
resulted in many of these Red Peoples being chosen as new ‘Native Leaders’ over
original Moorish tribes and given Land and ‘Reservations’ in the back door treaty deals.
Thousands of rebellious ‘Red’ natives supported Cortes.
Jules Cauvet a French author of lLes Berberes en Amerique [The Berbers in
America]’ published in 1930 cites that the ethnic names of 46 of 77 examined names of
inland and coastal African Berber Communities match American Tribes. Why are there
such close associations between so-called African Native Tribes and Ancient American
Indian More tribes in Language and in culture as well as physical appearance and
genotype? Author of ‘ They Came Before Columbus ’, Dr. Ivan Van Sertima, states in
reference to Cauvets findings,
"These many identities in names are not simply the result of one migration ofArabs or
Africans neither to America, nor in fact to a one-way traffic ofpeople and culture to
the American continent”
It is evident that the whites who colonized America had a plan that they codified
into the Laws of the United States while slavery was outlawed in the Constitution, under
the fugitive from justice clauses and the Migration and Importation clauses of the Slave
Codes; Black Codes to allow the international crime of enslaving a people who they had
international agreements not to enslave in violation of international treaties enforcing
involuntary servitude and attempts of genocide on a people and Nation who inhabited
America and Africa prior to the unlawful invasions of colonizing Caucasian Europeans.
My people had a nationality and land that is recorded on official record and in historical
documents on both continents.
Franklin enslaves all United States Citizens to Debt
•

Benjamin Franklin entered into a Treaty in 1782 with King George the III and His
exchequer Banks that the United States and the 13 Chartered “Trust” States
[United States of America] would be Held Responsible for the First payment
being due November 17th 1787. This was the sole purpose for the creating of the
Constitution the “Trust’ and the new government and set in operation a function
in the government where the Congress can Borrow money on behalf of the
United States Federal Government (Article I Section 8 Clause 2) and its subject
“State Agency Trusts” (States) and subject citizens, then set Up and Incorporated
a Bank to give those FOREIGN Creditors interest in the Labor of the People. This
is where we are at now, in Bondage. Article I of that Treaty States,

•

•

•

“It is agreed and certified that the sums advanced by His Majesty to the Congress
of the United States, under the title of a loan, in the years 1778,1779,1780, 1781,
and the present, 1782, amount to the sum of eighteen million of livres, money of
France, according to the following twenty-one receipts of the above mentioned
underwritten Minister of Congress, given in virtue of his full powers, to wit:
18,000,000
Amounting in the whole to 18 millions, viz
By which receipts the said Minister has promised, in the name of Congress, and in
behalf of the thirteen United States, to cause to be paid and reimbursed to the
royal treasury of His Majesty, on the 1st of January 1788, at the House of His
grand Banker at Paris, the said sum of eighteen millions, money of France, with
interest at 5 percent, per annum.
Article VI of this Treaty made in 1782 gives a picture of why the government
changed when it changed from the Anti-Federalists [Sons of Liberty] under the
Articles of Confederation to the Federalists under the Constitution.

ANCIENT “ISLAMIC METAPHYSICS”
NOT ASSOCIATED
WITH TODAYS “ISLAM” or “RELEGION”
Those who have been translators of the original Qara language of the
Blackamoors now called [Arabic] of the Qur'an need a knowledge of clear untampered
history in respect to Prophet Muhammad and His Indigenous American Indian MoorishIsraelite ancestry and lineage to the 18th Dynasty’s Family of Amraan (Amama) as well
as a better grasp of the original meaning of the authors of the language of the verses of
the Qur'an in order to get the full spiritual science and truth out of these verses and others.
The element Water (H20) is definitely the substance that is the basis for some molecular
organically living things; however before the combination of hydrogen atom and an
oxygen atom, there was life force, power, and motion operating in this universe. *Al Maa’
in this verse is referring to what we call today ‘ether * which is a form of the primeval
water (plasma) or dark matter of space. It was the Honorable Elijah Muhammad that
taught his students that the first atom of the universe was created from space in his
Theology of Time Lecture series. In ancient Egypt (Ta Moor-ai-Misra}, it (space - The
primeval waters) was called the waters of ‘Nun ’ by the Amama Dynasty. So by the
Spiritual and scientific makeup of the universe petitioner is a Muslim/Moor. His
Nature is Islam (Peace) according to the anatomical and physiological make up of his
being and his body of Law ‘Qur'an9 states that this is our nature, meaning the law that he
is bom into existence on and the laws that sustain and maintain his life force. He is by
Nationality and Lineage Muslims/Mores/Moors. No Arab scholar will ever explain Islam
like this to Black People or their own people because they too have been deceived by
their own scholarship. Some are a part of the rich bloodsuckers of the poor, the class
called the 10%, teachers of a Mystery God. They are aligned in this satanic conspiracy to
deprive petitioner of his full and complete freedom.

Surah Al Rums (The Romans) 30:30 HO - So set your person for the uprightfaith, the
nature and origination ofAllah in which He has originated the nature of the People.
There is no altering Allah’s creation. That is thefaith of the Resurrected Ones but
most people do not know. ”
This verse states that Allah’s (God’s) nature is Islam and our persons [Self] should be
directed towards that nature. The last time we ruled as a people we lived by this spiritual
science and culture. Since our demise our enemy has done everything possible to keep Us
out of the true knowledge of the true history of the last time we, so called-Black People,
ruled the planet and the knowledge of what governing body of law we used in our societal
rule. This was just over 500-200 years ago and Islam and the untampered Qur'an were the
basis of our government. Today we are split up into parties, sects, and tribes,
organizations, and nations at variance with one another, which is a sign that we are still
slaves that have been mastered by [Set - The Separator] the Satanic elite. The colonized
religion we have been taught, which in essence is the falsification of the most important
histories, has filtered over into our ‘political movements’, family life, and every other
domain of our existence. In order to heal this situation we must destroy these false
historical and religious concepts. We must deal with the ‘most important historical
events’ and peoples that have shaped and constructed our present realities. These
histories are given in the Bible & Qur'an, which is why the (Bible & Qur'an) are so
attractive to the populace of the earth, who seek the truth. We must study the teachers
from the Source of Power [The People] who have given the most profound and freedom
activating truths. Anything else is another loop in deception. If our primary goal is total
freedom we need the Truth of Allah [God = Self].

So-Called Black People in general have not learned the most applicable truths of
their greatest leaders, which mean that most of US have missed Our Nation’s greatest
Blessings. How many of US have never known the man Noble Drew Ali? Do you know
why? It is the same reason why historically Black Colleges will never to teach
Independent City Planning, Military/Warfare, and Independent Law for so called-Black
People. A great part of Noble Drew Ali’s mission deals with Law and Government. The
works of Noble Drew Ali and the Moorish-Americans of the “United States” and the
work of reintroducing so-called black people to our historical Indigenous MetaphysicalIslamic United States Government legacy [not United States of America, the Moors
created that one for the Moorish offspring who were left in Europe, made slaves by King
George II, where they were summoned here to have a home too. Being mixed-Moors 4th
Ed. Black’s Law Dictionary definition: “Free White Person ”]; bringing the idea of re­
nationalizing US as a nation under a new Status and Citizenship, [Preamble Citizen]
beginning the process of informing us of our [Indigenous] Islamic history here in the
Americas [Turtle Island/Amexem] and throughout the World was and is a profound work
that is directly related to the subject of‘Reparations/Restoration’. This gives us much to
discuss in regards to Islam’s true connection to United States & International
Government, Religion, and the general and specific histories that will play an important
role of the most event altering period in History.

This man Noble Drew Ali plays a very important role in history. He is the first
teacher of the Original Faith, God’s Faith [Religion] in America, that old time religion,
submission to the will of Allah (God), which is called by many names, however in Arabic
we say ‘Islam’. He brought this truth back to the True House ofIsrael. the descendants
of the Family ofAmraan (Abraham). This is who (Black People in America) are
referred to as in the 3rd Surah of the Qur'an. It is the contention that Noble Drew Ali and
his family, along with the mass amounts of our people, are key links of study in regards
to Our Divine Lineage from the 18th Dynasty of Egypt (Moreish-Israel). He was a
descendant of a man named Yusef Bin Ali. A so-called Black Man from Morocco who
was a Moorish-Muslim National, who lived in America. Yusef Bin Ali and his son York
[Not Dr. York of Georgia] were instrumental in activity with Lewis and Clark and the
expansion of white peoples’ knowledge of the Western frontier in America during the
1800’s. Noble Drew Ali’s father and mother also play a very important role in respect to
this subject of American jurisprudence, land, and our ancient Indigenous history.
The members of the 18th Dynasty are hidden under the so-called Major Prophets
of the Bible and Qur'an and this lineage is the Nation descended from Amraan or from
this time period called the New Kingdom in Egypt that gives rise to the Olmecs [Amexumj civilization in America. The Olmec /Mayan/Aztec civilizations are given credit for
the entire scientific, astronomical, agricultural, architectural/engineering pyramid and
mound building advancement that took place in Ancient America. The natives of the land
of Mexico, Central America, and the Yucatan, specifically the Quiche (Kush/Kish)
people of Maya-land say that their ancestors were Israelites. In history they were the 18th
Dynasty Amarna Nation that left Ta Moor-ai [Egypt/Africa] and fled to the ‘Middle
East’ and ‘America’. The Quiche, who are a native tribe in Mexico, Memorandum this
origin to priests in 1Mysteries of the Mexican Pyramids ’ by Peter Tompkins.
UNITED STATES not UNITED STATES OF AMERICA
A Stelae from the Records of the seventh year of the rule of Amenhotep II (Saul)
and his military commander Thutmose III (Yuya/Abraham/David) in Memphis show that
there were 3600 Apiru (Strangers/Foreigners) of the captured peoples. David (Thutmose
III/Abraham/Yuya) and Solomon (Akhenaton) are recorded in the Bible as dealing with
these same strangers and keeping a census record of them. There are 3600 of the
strangers recorded in 2nd Chronicles 13-17th verses, or Apiru (Habiru) which became
the word Hebrew.
My point here is that Charles Thomson, Secretary of Congress, by and through his work
with this translation, His work in working with others in establishing the design for the
Flag and the seals bearing the Pyramid, the Eye ofHern, the phoenix, and the
significant ‘13’ was very aware of these traditions, their Egyptian Origins and their
connection to the astronomical significance of Sirius. How? Where did he get this
information from and why was it so important and instrumental in the founding of a
Nation that has become the most powerful nation on Earth? Will we find the secret
influence of the members or descendants of the Egyptian 18th Dynasty Family of Amraan
(Moreish-Israel) in the halls on the Continental Congress in the establishment of America?

If so how would the influence of the so-called Black People of this lineage in the setup of
the affairs of the establishment of the American government make US view everything
that is operating around US in respect to Government and even the past itself as it relates
to the ‘slavery’ period? What about the concepts of slavery? What we will find is that
Wars between our ancestors and mixed mulatto-white people took place after we helped
them learn our sciences of government building - administratively and physically and
gave them a government “United States of America” as listed in the Preamble. Are we
willing to take a closer look?
“Prior to the adoption of the design for the seal in 1782, the two mottoes had been
changed by Thomson. In fact, it was Thomson, who had been a Latin instructor prior
to being the headmaster of the Congress. who came up with not the one, nor the two,
but the three mottos which grace the Great Seal of the United States.
When the two designs were passed by Congress on June 20th 1782 it was recognized
that the motto * NOVUS ORDO SECLORUM’ signified as Thomson wrote, ’the
beginning of the New American era ’.

The seal of the Pyramid though was never cut, or produced till around 1930’s. The above
seals represent the:
“United States of America” only, 2nd Government

The above pyramid and seal are the official seals of the:
“United States” only, 1st Government
Which is a “Phoenix” not an Eagle, the eagle is what we gave them/Mixed Mulatto
Moors/Free White Persons for their government, United States of America; from the

United States, as listed in the “Preamble” to United States of America and the 2nd
Constitution of the United States where petitioners ancestors wrote for them/Mixed
Mulatto Moors/Free White Persons.
“By Law it should have been cut and used in 1782 alongside the obverse. A later Act of
Congress (September 15th 1789) CONTINUED THE LEGAL NEED TO CUT THE
REVERSE (Pyramid) but this did not happen. When the obverse was recut in 1841, the
reverse (Pyramid) was ignored and in 1883 it was decided to abandon all attempts to cut
it. In the following year, an act (July 7th, 1884) was passed to make the dies ofboth the
obverse and the reverse. Once dgain in spite ofan act of Congress, the reverse (Pyramid)
was not cut”
So why was it not cut. It is for the same reason that the word democracy is used by the
Government although it never shows itself in the document, the Constitution. The word
Republic is found in the Constitution; however, the Government created under the
Constitution has a Dual Contractual Nature, based on the Supremacy Clause represented
by the Dual Seals and specifically two Constitutions that Lay the base for understanding
the Supremacy Clause of the Constitution. It represents the two Nations in America one
being the Ancient Autochthon Indigenous Moorish Nation United States', the other being
the United States of America, verified in the preamble of the Constitution.
A note here of interest is that Charles Thomson served as the Secretary for the
so-called ‘Lenni LeNape’ [Grandfathers Elders of Humanity of Algonquianl
Autochthon Indigenous Americans-United States. His service in this group is a key
connection of the Continental Congress-United States in Congress Assembled [United
States], to the histoiy of Masonry and Our Own hidden Indigenous Moorish heritage and
history that is veiled in this secret History of the United States. Remember white people
have changed the names of many things to create confusion. In 1756, Thomson was the
secretary for the LeNape (Delaware Indians - Moors/Nubi-ans), at a great council held, at
Easton; and that Nation adopted him as a son, according to an ancient custom. The word
‘LeNape’ is “French” reversed from the Mexican “El Nope’- “The People”, from
“Lenapahanna”- to day Delaware. These, my ancestors are “Algonquian”; ancient name:
“alligewinenk”which means “Come Together from Distant Places” is derived from Le’,
which we found is related to Akhenaton (Pacal Votan) specifically to His ancestral line
and Nape or El Nope, Nab, which is interestingly of Egyptian origin ‘NB’ ‘meaning
Lord’. In Arabic ‘NabV means ‘Prophet or Messenger of the Word of God’. The ancient
Language of the Family of Amraan (Moorish-Israelites) often called ‘Maya’ gave the
name ’Naab ’ to bodies of water, water lilies, turtles, and water in general. Water lilies
were of extreme importance in Kemit/Egyptian Religious traditions. The ‘Le’ in Lenape
has ancient origins. The conventional meaning given is that it means ‘Original People ’,
as the Lenape were considered the ‘Grandfather ’ group amongst the 1st American
Indigenous Peoples of America. The true origin of ‘le’ (used in this frame of reference
in Lenape denotine its connection to Mexico) is derived from glyph forms found on the
Temple of Inscriptions at Palenque, Mexico, the secret burial tomb of Akhenaton (Moses,
Solomon). This inscription is described in The Sculpture ofPalenque: Volume II as,

“The He' motif, the leaf like element with three circles at the end, hangs below
the left armpit The *le* is a Unease symbol of ancestors, and designates that the person
wearing it on his clothing or paraphernalia, has lesitimate ancestral relationship to a
royal person. ”
This Linguistic and Cultural connection of the ‘Lenape’ to Ancient Mexico is the
link that establishes our peoples’ first return to ‘Turtle Island’ (The Americas) and the
line of time from the building of the pyramids in the Americas to the establishment of the
American government based on the ancient Laws of the Ancient Moorish-Israelite Nation.
This is all subsequent to the condition of becoming slaves of the foreign so-called white
men and women from Europe. [Africa is here called America; ‘Africa ’ was part of
America before the deluge]
The ‘LeNape’ are recorded as the owners of Philadelphia and allegedly sold a
section to William Penn in 1682. Statues of the Turtle are still found on Penn’s Landing.
The area of the Le Nape was called “Shaxamaxon” = “where the Kings meet' (Today
“Penn Treaty Park”, off the Delaware River in Philly) which is similar to Shaikh-Amexem [Am-Akh-Sum], Sachem-Axum [Akh-Sum]. Penn compares the Language of the socalled LeNape to the Hebrews, “Their language is lofty, yet narrow, but like the Hebrew;
in signification full, like short-hand in Memorandum; one word serveth in the place of
three, and the rest are supplied by the understanding of the hearer”.

FINAL VISTAS
Petitioner states clearly and succinctly for a granted Extra Ordinary Writ for Mandamus;
that he is the Posterity of the United States verified in the Preamble of “the Printed
Paper” (Constitution). The 65th Congress 1st session Doc. 87 “Constitutional Sources of
Laws of War” page 7 clause II verifies petitioners status as the Sovereign Authority or
Posterity. Also by 96th Congress 1st Session House Document “Public Law” 96-143 inter
alia, that verifies the 2 Declarations one as “A Declaration” the original and the
“Unanimous Declaration of the 13 United States of America” the 2nd and the 2
Constitutions original with “no title” and copy titled “Constitution of the United States”
about petitioner who is the Autochthon Indigenous American “Indian”... [specific
ancestry from dad’s mother, my grandmother ], “Choctaw” [Indian] Moor=More, who is,
was, am now and always has been in the jurisdiction of the United States not United
States of America, as listed in the Preamble of the Constitution of United States.
The court is to use this memorandum to aid in its appellant jurisdiction where this writ
and memorandum is not of, for “Equity” but outside of that and is given here for this
court is the only court with the jurisdiction to hear and decide Constitutionally for the
interest ofjustice for the original Posterity Citizen of the United States herein seeks such
writ that is extraordinary for a Writ of Mandamus and deserves to be granted.

CONCLUSION
The petition for Extra Ordinary Writ for Writ of Mandamus should be granted.
Respectfully submitted, O
Aj
Q f.
February 10,2021

Sakima Iban Salih El Bey

APPENDIX
1) Preamble of Constitution: We, the People of the United States, in order to form a
more perfect union, establish justice, insure domestic tranquility, provide for the common
defense, promote the general welfare, and secure the blessings of liberty to ourselves and
our posterity, do ordain and establish this Constitution for the United States of America.
Constitution of the United States:
2) Article 4, sec. 2 - The Citizens of each State shall be entitled to all privileges and
immunities of citizens in the several states.
3) Article 3, sec. 1 - The judicial power of the United States shall be vested in one
Supreme Court and in such inferior courts as the Congress may from time to time ordain
and establish. The judges, both of the Supreme and inferior courts, shall hold their offices
during good behavior, and shall, at stated times, receive for their services a compensation,
which shall not be diminished during their continuance in office.
4) Article 4, sec. 4 - The United States shall guarantee to every State in this Union a
republican form of government, and shall protect each of them against invasion: and on
application of the legislature, or of the executive (when the legislature cannot be
convened), against domestic violence.
Constitution of Arkansas
§ 1. Source of power. All political power is inherent in the people and government is
instituted for their protection, security and benefit; and they have the right to alter, reform
or abolish the same, in such manner as they may think proper.
§ 2. Freedom and independence. All men are created equally free and independent, and
have certain inherent and inalienable rights; amongst which are those of enjoying and
defending life and liberty; of acquiring, possessing and protecting property, and
reputation; and of pursuing their own happiness. To secure these rights governments are
instituted among men, deriving their just powers from the consent of the governed.
§ 3. Equality before the law. The equality of all persons before the law is recognized,
and shall ever remain inviolate; nor shall any citizen ever be deprived of any right,
privilege or immunity; nor exempted from any burden or duty, on account of race, color
or previous condition.
§ 4. Right of assembly and of petition. The right of the people peaceably to assemble, to
consult for the common good; and to petition, by address or remonstrance, the
government, or any department thereof, shall never be abridged.

§ 6. Liberty of the press and of speech — Libel. The liberty of the press shall forever
remain inviolate. The free communication of thoughts and opinions, is one of the
invaluable rights of man; and all persons may freely write and publish their sentiments on
all subjects, being responsible for the abuse of such right. In all criminal prosecutions for
libel, the truth may be given in evidence to the jury; and, if it shall appear to the jury that
the matter charged as libelous is true, and was published with good motives and for
justifiable ends, the party charged shall be acquitted.
§ 7. Jury trial — Right to — Waiver — Civil cases — Nine jurors agreeing. The right
of trial by jury shall remain inviolate, and shall extend to all cases at law, without regard
to the amount in controversy; but a jury trial may be waived by the parties in all cases in
the maimer prescribed by law; and in all jury trials in civil cases, where as many as nine
of the jurors agree upon a verdict, the verdict so agreed upon shall be returned as the
verdict of such jury, provided, however, that where a verdict is returned by less than
twelve jurors all the jurors consenting to such verdict shall sign the same. [As amended
by Const. Amend. 16.]
§ 8. Criminal charges — Self-incrimination — Due process — Double jeopardy —
Bail. No person shall be held to answer a criminal charge unless on the presentment or
indictment of a grand jury, except in cases of impeachment or cases such as the General
Assembly shall make cognizable by justices of the peace, and courts of similar
jurisdiction; or cases arising in the army and navy of the United States; or in the militia,
when in actual service in time of war or public danger; and no person, for the same
offense, shall be twice put in jeopardy of life or liberty; but if, in any criminal prosecution,
the jury be divided in opinion, the court before which the trial shall be had, may, in its
discretion, discharge the jury, and commit or bail the accused for trial, at the same or the
next term of said court; nor shall any person be compelled, in any criminal case, to 3 be a
witness against himself; nor be deprived of life, liberty or property, without due process
of law. All persons shall, before conviction, be bailable by sufficient sureties, except for
capital offenses, when the proof is evident or the presumption great.
§ 9. Excessive bail or punishment prohibited — Witnesses — Detention. Excessive
bail shall not be required; nor shall excessive fines be imposed; nor shall cruel or unusual
punishments be inflicted; nor witnesses be unreasonably detained.
§10. Right of accused enumerated — Change of venue. In all criminal prosecutions,
the accused shall enjoy the right to a speedy and public trial by an impartial jury of the
county in which the crime shall have been committed; provided, that the venue may be
changed to any other county of the judicial district in which the indictment is found, upon
the application of the accused, in such manner as now is, or may be prescribed by law;
and to be informed of the nature and cause of the accusation against him, and to have a
copy thereof; and to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to be heard by himself and his counsel.

§11. Habeas corpus. The privilege of the writ of habeas corpus shall not be suspended;
except by the General Assembly, in case of rebellion, insurrection or invasion, when the
public safety may require it.
§12. Suspension of laws. No power of suspending or setting aside the law or laws of the
State, shall ever be exercised, except by the General Assembly.
§ 13. Redress of wrongs. Every person is entitled to a certain remedy in the laws for all
injuries or wrongs he may receive in his person, property or character; he ought to obtain
justice freely, and without purchase; completely, and without denial; promptly and
without delay; conformably to the laws.
§15. Unreasonable searches and seizures. The right of the people of this State to be
secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated; and no warrant shall issue, except upon probable cause,
supported by oath or affirmation, and particularly describing the place to be searched, and
the person or thing to be seized.
§17. Attainder — Ex post facto laws. No bill of attainder, ex post facto law, or law
impairing the obligation of contracts shall ever be passed; and no conviction shall work
corruption of blood or forfeiture of estate.
§18. Privileges and immunities — Equality. The General Assembly shall not grant to
any citizen, or class of citizens, privileges or immunities which, upon the same terms,
shall not equally belong to all citizens.
§ 19. Life, liberty and property — Banishment prohibited. No person shall be taken,
or imprisoned, or disseized of his estate, freehold, liberties or privileges; or outlawed, or
in any manner destroyed, or deprived of his life, liberty or property; except by the
judgment of his peers, or the law of the land; nor shall any person, under any
circumstances, be exiled from the State.
§ 20. Property rights — Taking without just compensation prohibited. The right of
property is before and higher than any constitutional sanction; and private property shall
not be taken, appropriated or damaged for public use, without just compensation
therefore.
§21. Enumeration of rights of people not exclusive of other rights — Protection
against encroachment. This enumeration of rights shall not be construed to deny or
disparage others retained by the people; and to guard against any encroachments on the
rights herein retained, or any transgression of any of the higher powers herein delegated,
we declare that everything in this article is excepted out of the general powers of the
government; and shall forever remain inviolate; and that all laws contrary thereto, or to
the other provisions herein contained, shall be void.

Arkansas Code:
1) AR 27-16-603(2) - Any person while operating or driving any road machine, farm tractor, or
implement of husbandry temporarily operated or moved on a highway;
2) AR 27-23-119 - In the event that it shall be determined by federal regulation that certain
classes of drivers shall be exempt from the application of the Commercial Motor Vehicle Safety
Act of 1986, Pub. L. No. 99-570, Title XU, the State Highway Commission shall have the
authority to and shall promulgate rules and regulations to exempt those certain classes of drivers
from the application of this subchapter.
United States Code
3)18 USC, sec. 241 - If two or more persons conspire to injure, threaten, or intimidate
any inhabitant ofany State, Territory, or District in the Free exercise, or enjoyment of
any right, or privileges secured to him by the Constitution or laws of the United States, or
because ofhis having so exercised the same; or Iftwo or more persons go in disguise on
the highway, or on the premises ofanother, with intent to prevent or hinder his free
exercise or enjoyment of any right or privilege so secured — They shall be fined not
more than $10,000 or imprisoned not more than ten years, or both; and ifdeath results,
they shall be subject to imprisonmentfor any term ofyears or for life.
4)18 USC, sec. 242 - Whoever, under color of any law, Statute, ordinance, regulation, or
custom, willfully, subjects any inhabitant ofany State, Territory, or District to the
deprivation of any rights, privileges, or immunities secured or protected by the
Constitution or laws of the United States, or to different punishments, pains, or penalties,
on account ofsuch inhabitant being an alien, or by reason of his color, or race, than one
prescribedfor the punishment of citizens shall be fined not more than $1,000 or
imprisoned not more than one year, or both; and if bodily injury results shall be fined
under this title or imprisoned not more than ten years, or both; and ifdeath results shall
be subject to imprisonmentfor any term ofyears or for life.
5) 28 USC, sec. 3002 (15) (A) a Federal Corporation
(B) an agency, department, commission, board
or other entity of the United States
(C) an instrumentality of the United States
6) 5 USC, sec. 2105 (a) For the purpose of this title [5USC sec. 101 et seq.] “employee”,
except as otherwise provided by this section or when specially modified, means and
officer and an individual who is(1) - appointed in the civil service by one of the following acting in an official
capacity(A) the President
(B) a member or Members of Congress, or the Congress
(E) the head of a Government Controlled corporation;

7) 5 USC, sec. 1501 (2) - “State or local agency” means the executive branch of a State,
municipality, or other political Subdivisions of a State, or an agency or department,
thereof;
(4) “State or local officer or employee” means an individual employee by a State
or local agency whose principal employment is in commission with an activity which is
financed in whole or in part by loans or grants made by the United States or Federal
agency, but does not include 8) 8 USC, sec. 1101 (a) (22) (A) - a citizen of the United States.
9) 8 USC, sec. 1503 (a) - If any person who is within the United States and is denied
such right or privilege by any department, or independent agency, or official thereof,
upon the ground that he is not a national of the United States, such person may institute
an action under the provision of Sec. 2201 of title 28 [28 USC] against the head of such
department or independent agency for a judgment declaring him to be a national of the
United States, except that no such action may be instituted in any case if the issue of
such person status as a national of the United States
(1) arose by reason of, or in connection with any exclusion proceeding under the
provisions of this or any other act, or (2) is in issue in any such exclusion proceeding. An
action under this subsection may be instituted only within 5 years after the final
administrative denial of such right or privilege and shall be filed in the district court of
the United States for the district in which such person resides or claims a residence, and
over such officials in such cases is hereby conferred upon those courts.
10) 18 USC 2384 seditious conspiracy - If two more persons in any State or Territory,
or in any place subject to the jurisdiction of the United States, conspire to overthrow, put
down, or to destroy by force the Government of the United States, or to levy war against
them, or to oppose by force the authority thereof, or by force to prevent, hinder, or delay
the execution of any law of the United States, or by force to seize, take, or possess any
property of the United States contrary to the authority thereof, they shall each be fined
under this title or imprisoned not more than twenty years, or both.
11) 18 USC 2381 Treason - Whoever, owing allegiance to the United States, levies war
against them or adheres to their enemies, giving them aid and comfort within the United
States or elsewhere, is guilty of treason and shall suffer death, or shall be imprisoned not
less than five years and fined under this title but less than $10,000; and shall be incapable
of holding any office under the United States
12) Rules of Evidence 201 (d) - A court shall take judicial notice if requested by a party
and supplied with the necessary information.
13) Am jur 2d p. 715-720 sec.1-5 - Barratry and Judicial Intermeddling.
14) 1866 Treaty Choctaw, Chickasaw.

15) Congressional Globe 1862, House Session on Senate Bill 108 “for release of certain
persons held to service or labor in the District of Columbia” (Mr. Dawes in the Chair)
Mr. Cradlebaugh Congressman speaking.
16) Scholarship Sources:
a) “Ancient and Modem Britton” by David McRitchie two volumes.
b) “Great Mystery Philadelphia” by Ras Ben
c) “THE BARNHART CONCISE DICTIONARY of ETYMOLOGY - THE
ORIGINS of AMERICAN ENGLISH WORDS” by Robert K. Barnhart.
d) Benjamin Franklins letter to King George; from his Essays 1751.

